Appendix C

37

Mail - Michael J. Bresnehan - Outlook

7117120;'0

18-10374 USA v. James Gilmore, Jr. "Order Filed (From Chambers)"
ca9_ecfnoticing@ca9.uscourts.gov <ca9_ecfnoticing@ca9.uscourts.gov>
To: mbresnehan@hotmail.com <mbresnehan@hotmail.com>

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by
the filer. PACER access fees apply to all other users. To avoid later charges, download a copy of
each document during this first viewing.
United States Court of Appeals for the Ninth Circuit
Notice of Docket Activity
The following transaction was entered on 07/17/2020 at 10:15: 17 AM PDT and filed on 07/17/2020

Case Name:

USA v. James Gilmore, Jr.

Case Number: 18-10374
Document{s):

Document(s)

Docket Text:
Filed order (MARSHA S. BERZON, SANDRA S. IKUTA and !VAN L.R. LEMELLE) The panel has
unanimously voted to deny appellant's petition for rehearing. Judge Berzon and Judge Ikuta have
voted to deny the petition for rehearing en bane. Judge Lemelle recommends denial of the petition for
rehearing en bane. The full court has been advised of the petition for rehearing en bane, and no judge
has requested a vote on whether to rehear the matter en bane. Fed. R. App. P. 35. The petition for
rehearing is denied and the petition for rehearing en bane is rejected. [11756439] (OC)

Notice will be electronically mailed to:
Michael J. Bresnehan, Attorney: mbresnehan@hotmail.com
Peter S. Kozinets: peter.kozinets@usdoj.gov, tammie.holm@usdoj.gov, usaaz.ecfpappl@usdoj.gov,
caseview.ecf@usdoj.gov
Ms. Margaret Perimeter: Margaret.Perlmeter@usdoj.gov, adrienne.redhouse@usdoj.gov,
caseview.ecf@usdoj.gov, usaaz.ecfpappl@usdoj.gov
Honorable G. Murray Snow, Chief District Judge: snow_chambers@azd.uscourts.gov
USDC, Phoenix: azddb_appeals@azd.uscourts.gov

The following document(s) are associated with this transaction:
Document Description: Main Document
Original Filename: 18-10374cleared.pdf

Electronic Document Stamp:

[STAMP acecfStamp_lD=1106763461 [Date=07/17/2020] [FileNumber= 11756439-0]
[09b0204639b50fa0ef9678c3a3d3f8d79537b4276e5410294c45c0555bbc55dd9a2f76783aca322dc.
htlps://outlook.live.com/mail/0/inbox/id/AQMkADAwATZiZmYAZC0SNDQAMS1iZDdkLTAwAi0wMAoARgAAAzRQ6FkcYKNJki7hiX60MTEABwCJ

38

7/17/20-:'0

Mail - Michael J. Bresnehan - Outlook

ebc928f7 db17eeac79b4561402a07207036e3e86cf5e]]

https://outlook.live.com/mail/0/inbox/id/AQMkADAwATZiZmYAZC05NDQAMS1iZDdkLTAwAi0wMAoARgAAAzRQ6FkcYKNJki7hiX60MTEAB1

39

